<html>
<title> - UNITED STATES INTERNATIONAL COMMUNICATIONS REFORM ACT OF 2014; TO AMEND THE INTERNATIONAL RELIGIOUS FREEDOM ACT OF 1998 TO INCLUDE THE DESECRATION OF CEMETERIES AMONG THE MANY FORMS OF VIOLATIONS OF THE RIGHT TO RELIGIOUS FREEDOM; CALLING FOR AN END TO ATTACKS ON SYRIAN CIVILIANS AND EXPANDED HUMANITARIAN ACCESS; AND IMMEDIATE ESTABLISHMENT OF SYRIAN WAR CRIMES TRIBUNAL RESOLUTION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
UNITED STATES INTERNATIONAL COMMUNICATIONS REFORM ACT OF 2014; TO AMEND 
    THE INTERNATIONAL RELIGIOUS FREEDOM ACT OF 1998 TO INCLUDE THE 
  DESECRATION OF CEMETERIES AMONG THE MANY FORMS OF VIOLATIONS OF THE 
  RIGHT TO RELIGIOUS FREEDOM; CALLING FOR AN END TO ATTACKS ON SYRIAN 
CIVILIANS AND EXPANDED HUMANITARIAN ACCESS; AND IMMEDIATE ESTABLISHMENT 
                OF SYRIAN WAR CRIMES TRIBUNAL RESOLUTION

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                   H.R. 4490, H.R. 4028, H. Res. 520

                          and H. Con. Res. 51

                               __________

                             APRIL 30, 2014

                               __________

                           Serial No. 113-162

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
87-713                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="99fee9f6d9faeceaedf1fcf5e9b7faf6f4b7">[email&#160;protected]</a>  
                                 ______
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 4490, United States International Communications Reform Act 
  of 2014........................................................     2
  Amendments to H.R. 4490 offered by:
      The Honorable Edward R. Royce, a Representative in Congress 
        from the State of California, and chairman, Committee on 
        Foreign Affairs..........................................    69
      The Honorable William Keating, a Representative in Congress 
        from the Commonwealth of Massachusetts...................    74
      The Honorable Alan S. Lowenthal, a Representative in 
        Congress from the State of California....................    75
      The Honorable Dana Rohrabacher, a Representative in 
        Congress from the State of California....................    76
      The Honorable Brad Sherman, a Representative in Congress 
        from the State of California.............................    76
H.R. 4028, To amend the International Religious Freedom Act of 
  1998 to include the desecration of cemeteries among the many 
  forms of violations of the right to religious freedom..........    80
  Amendment to H.R. 4028 offered by the Honorable Doug Collins, a 
    Representative in Congress from the State of Georgia.........    81
H. Res. 520, Calling for an end to attacks on Syrian civilians 
  and expanded humanitarian access...............................    83
  Amendment in the nature of a substitute to H. Res. 520 offered 
    by the Honorable Edward R. Royce.............................    91
H. Con. Res. 51, Immediate Establishment of Syrian War Crimes 
  Tribunal Resolution............................................   100
  Amendment in the nature of a substitute to H. Con. Res. 51 
    offered by the Honorable Christopher H. Smith, a 
    Representative in Congress from the State of New Jersey......   104

                                APPENDIX

Markup notice....................................................   118
Markup minutes...................................................   119
Markup summary...................................................   121
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Prepared statement......................   122
The Honorable Brad Sherman: Prepared statement...................   123
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........   124
UNITED STATES INTERNATIONAL COMMUNICATIONS REFORM ACT OF 2014; TO AMEND 
    THE INTERNATIONAL RELIGIOUS FREEDOM ACT OF 1998 TO INCLUDE THE 
  DESECRATION OF CEMETERIES AMONG THE MANY FORMS OF VIOLATIONS OF THE 
  RIGHT TO RELIGIOUS FREEDOM; CALLING FOR AN END TO ATTACKS ON SYRIAN 
CIVILIANS AND EXPANDED HUMANITARIAN ACCESS; AND IMMEDIATE ESTABLISHMENT 
                OF SYRIAN WAR CRIMES TRIBUNAL RESOLUTION

                              ----------                              


                       WEDNESDAY, APRIL 30, 2014

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:07 a.m., in 
room 2712, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. The committee will come to order.
    Pursuant to notice, we meet today to mark up four strongly 
bipartisan measures by the committee here. And because there 
are four other full committee markups going on at this same 
time and because these measures enjoy such broad support here 
on the committee, the ranking member and I intend to proceed 
according to the expedited procedure e-mailed to your offices 
yesterday.
    So, without objection, all members may have 5 days to 
submit statements for the record and any extraneous materials 
on today's items.
    And I now call up H.R. 4490.
    The clerk will report the bill.
    Ms. Marter. H.R. 4490, a bill to enhance the missions, 
objectives, and effectiveness of United States international 
communications, and for other purposes. Be it enacted----
    Chairman Royce. So, without objection, the bill is 
considered read.
    [H.R. 4490 follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Royce. And I now recognize members for opening 
remarks on this bill, beginning with myself and beginning with 
the ranking member.
    And so let me begin by thanking Eliot Engel for his work in 
moving this bipartisan bill forward. The two of us and others 
on the committee have just returned from Ukraine, and that 
visit, I think for all of us, underscored the need to reform 
U.S. international broadcasting. Traveling to eastern Ukraine, 
our delegation witnessed the Russian propaganda machine, which 
is now in overdrive, and the attempts by Russia to undermine 
regional stability. The Russian closure of local Ukrainian 
radio and television stations, the jamming of uncensored 
sources of information into the country--all of this demands an 
effective response. This committee recently worked on 
legislation, signed into law, to ramp up programming into 
Ukraine.
    But unfortunately, U.S. broadcasters--the Voice of America, 
Radio Free Europe, Radio Free Asia, and others--are competing 
with a hand tied behind their back. And that is because the 
bureaucratic structure over the top of these radios, the 
Broadcasting Board of Governors, the BBG as it is known, that 
structure is broken.
    So while our enemies are working right now 24/7 on their 
public information campaigns, the organization at the helm of 
ours meets once a month--once a month--and often doesn't have a 
quorum. And that is a recipe for failure. And if we think about 
some of the witnesses we have heard on this subject, then-
Secretary Clinton told this committee last year that the BBG, 
in her words, is ``practically defunct.'' Reports from the 
Inspector General and the GAO have agreed, as does nearly 
everyone with experience in this field, Republicans or 
Democrats.
    This legislation makes dramatic changes to the current 
organization by clarifying the missions of our U.S. 
international broadcasters, consolidating six organizations 
into two.
    One organization, the United States International 
Communications Agency, will remain a Federal entity and will 
consist of the Voice of America and the associated technical 
services our broadcasters depend on. And we make clear that the 
mission of the Voice of America is to ``present the policies of 
the United States clearly and effectively,'' exactly as was 
intended.
    Radio Free Europe, Radio Free Asia, and the Middle East 
Broadcasting Network, the so-called surrogates, have, of 
course, a very different mission: To provide uncensored local 
news and information to people in closed societies and to be 
``a megaphone for internal advocates of freedom.'' So whether 
it is in Iran or North Korea or elsewhere, that is the 
intention of these surrogate broadcasts. And these freedom 
broadcasters, as they are known, will keep their names but 
consolidate into a private, nonprofit corporation that will 
become the Freedom News Network.
    Both the U.S. International Communications Agency and 
Freedom News Network will now have empowered CEOs at the helm 
and purely advisory boards. Ripping away the bureaucracy will 
reduce administrative overlap and allow both organizations to 
thrive. This legislation also mandates important reforms to the 
contracting practices of the BBG and increases public-private 
partnerships.
    Unlike decades past, today's media landscape is highly 
competitive. Other countries are sprinting forward; we are 
still standing still. If we are going to adapt, we need a more 
effective and efficient use of our finite resources, which this 
legislation lays out through its mission clarification and 
management reform.
    And, again, I want to thank Ranking Member Engel, who I now 
turn to for his remarks.
    Mr. Engel. Mr. Chairman, thank you for holding this markup 
of bipartisan legislation, as you mentioned, that will enhance 
the ability of the United States to facilitate the free flow of 
information and share our values with people around the world.
    Let me say firstly, Mr. Chairman, it was a pleasure to 
travel with you on our recent trip to Ukraine. We saw firsthand 
that the competition of ideas and the battle for hearts and 
minds are alive and well.
    Over the past few months, Moscow has used its state-
controlled media to broadcast totally baseless propaganda that 
has been used as a pretext for Russia's invasion of Crimea and 
its destabilizing activities in eastern Ukraine.
    But Ukraine is far from the only place where objective news 
is in demand. In Iran, the regime closely controls the free 
flow of information and has actively jammed U.S. satellite 
transmissions. And in North Korea, the regime locks radios on 
certain frequencies to prevent people from listening to the 
Voice of America and Radio Free Asia.
    Unfortunately, our efforts to disseminate objective news to 
societies that lack a free media are not as effective as they 
should be. Last year, a report by the State Department 
Inspector General found that the Broadcasting Board of 
Governors, the agency that currently oversees all U.S. 
international broadcasting, was ``failing in its mandated 
duties'' due to a flawed structure and strong internal 
dissension.
    The bill that Chairman Royce and I introduced with support 
from many of our colleagues on both sides of the aisle will 
help fix this structure by improving management, enhancing 
coordination among the different broadcasting entities, and 
empowering journalists and editors to produce high-quality 
programming that keeps pace with the rapidly changing 
international media landscape.
    Specifically, the legislation creates a chief executive 
officer to manage the day-to-day operations of the new U.S. 
International Communications Agency, an umbrella organization 
for Voice of America and Office of Cuba Broadcasting. And it 
also creates a CEO to run the Freedom News Network, a new 
organization comprised of the three existing private grantees, 
which are Radio Free Europe/Radio Liberty, Radio Free Asia, and 
the Middle East Broadcasting Networks.
    The bill also defines the missions of VOA and the Freedom 
News Network to reduce the duplication of programming and 
requires robust coordination between the Federal and private 
entities, including the sharing of content and strategic plans 
to maximize efficiency. Under the new organizational structure, 
Voice of America (VOA), the flagship of U.S. broadcasting for 
more than 50 years, will remain the primary source of 
information about the United States and our culture, while the 
three grantees that form the Freedom News Network will continue 
to provide news to audiences about developments in their own 
countries.
    Only by working closely together will these broadcasters be 
effective in providing comprehensive news and information to 
those who need it most. When I was recently with Chairman Royce 
in the eastern part of Ukraine, we met a lot of people who said 
that they really would welcome more information from the United 
States, that they really don't get the balanced type of 
information. And we know Radio Free Europe and others are the 
ones that helped the Soviet Union collapse. And so this is a 
really smart thing for us to do.
    Lastly, and perhaps most importantly, this bill maintains 
the requirement that U.S.-funded programming serve as an 
objective source of news and information and not simply as a 
mouthpiece for U.S. foreign policy. It is absolutely critical 
that the news be accurate and seen as credible by the foreign 
audiences we are trying to reach.
    So, Mr. Chairman, I would like to thank you again for 
holding this important markup and really for your leadership 
over the course of many years on international broadcasting 
issues. This is one ball that you have run with for many years, 
even before you were chairman of this committee, and it is very 
much noticed and very much appreciated. And I also would like 
to thank you for working with us on this legislation in a 
bipartisan manner.
    I have some votes in my other committee, so I may be in and 
out. But this legislation is so important and should be passed 
with no dissension because I think this is the type of 
legislation that this committee can be proud of, again, on a 
bipartisan basis.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel.
    I will ask now if any other members seek recognition on the 
underlying bill.
    Hearing none, we will now move to the en bloc amendment 
package that was sent to members' offices yesterday.
    Without objection, the following amendments to H.R. 4490, 
which all members have before them, are considered read and 
will be considered en bloc: The Royce Manager's Amendment No. 
102; the Keating Amendment circulated yesterday regarding women 
and minorities; Lowenthal Amendment No. 27, recognizing 
shortwave broadcasting; Rohrabacher Amendment No. 39, regarding 
U.S. national security objectives; and Sherman Amendment No. 
85, regarding ethnic, cultural, or religious groups within 
countries of national security interest to the United States.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Royce. And before recognizing other members to 
speak, I again want to thank the ranking member for working 
with me on the manager's amendment, which includes a number of 
post-introduction corrections, technical changes, and other 
housekeeping matters. And, among other things, it makes it 
clear that the United States International Communications 
Agency is a Federal organization and requires a plan to 
consolidate the Voice of America and the International 
Broadcasting Bureau into that new entity.
    It also reiterates the mandate that the broadcasters share 
their content with each other and requires the development of a 
joint plan to determine how language services will be affected 
by the clarified organizational missions.
    Do any members seek recognition to speak on any of the en 
bloc items?
    Mr. Lowenthal?
    Mr. Lowenthal. Thank you, Mr. Chair. And I want to thank 
you and the ranking member for bringing this important bill 
forward and also for leading our congressional delegation to 
Ukraine. It was an amazing, an amazing trip, where we learned a 
great, great deal.
    That trip to Ukraine only further affirmed to me the 
importance of international broadcasting programs and what a 
great impact they can have in regions that are desperately 
crying out for independent news sources.
    My amendment simply adds the following text to the findings 
of this bill: ``Shortwave broadcasting has been an important 
method of communication that should be utilized in regions as a 
component of the United States international broadcasting where 
a critical need for the platform exists.''
    One of these absolutely critical regions is southeastern 
Asia and specifically Vietnam, which is a one-party, Communist 
state that has no freedom of the press. Its people rely upon 
the trusted news provided by Radio Free Asia, delivered by 
shortwave broadcasting, a media that reaches millions of people 
who would otherwise be uninformed of events in their country.
    International broadcasting and shortwave in particular are 
key components in promoting democratic societies and for 
keeping pressure on totalitarian regimes to respect the 
fundamental human rights of their own people. This amendment 
reiterates our support for shortwave broadcasting and allows 
the United States to continue a diversified portfolio of 
broadcasting to underserved peoples across the globe.
    Thank you, Mr. Chair, and I yield back.
    Chairman Royce. Thank you, Mr. Lowenthal.
    Mr. Keating. Mr. Chairman?
    Chairman Royce. Mr. Keating?
    Mr. Keating. Thank you, Mr. Chairman. I would like to 
strike the last word.
    Mr. Chairman, I would like to thank you and Ranking Member 
Engel for your leadership on this important reform initiative 
that I have proudly cosponsored with you.
    Public diplomacy efforts are critical to our Nation's 
security, prosperity, and image abroad. Oftentimes, a program 
on Alhurra TV or a tweet from Radio Free Europe may be the only 
direct communication an individual overseas may receive from 
our country. In fact, yesterday alone, the Prime Minister from 
Latvia was here speaking to some of our Members, and she 
mentioned no less than three times about the increase in 
Russian propaganda on Russian-speaking people in her 
population.
    In a world where so such information exists particularly 
about U.S. interests in society, it is important that we do not 
only put our best face forward as a country but demonstrate our 
commitment to the truth and freedom of expression in media, as 
well.
    I am pleased that my amendment to prioritize the delivery 
of information and programming to isolated women and minority 
populations overseas is included in the en bloc package.
    Recently, Mr. Chairman, you and I held a hearing on the 
nexus between promoting education for women and girls and 
countering violent extremism. This amendment is a byproduct of 
that hearing and will help close the gap by encouraging more 
outreach and public-private partnerships to reach women in 
isolated communities and in some cases assist in increasing 
their access to education and uncensored information sources.
    In this way, we will not only be relaying a vision of 
democracy to other Nations, but we will actually be helping to 
build such societies by strengthening the civil society 
engagement and outreach itself.
    Mr. Chairman, I am pleased that the committee has agreed to 
include the access to education as a primary component to the 
democratic ideals the Freedom News Network aims to support in 
its report. And I hope that all of us as colleagues will join 
together in supporting this commonsense provision in the en 
bloc amendment.
    And I yield back my time.
    Chairman Royce. Thank you, Mr. Keating.
    Any other members seeking recognition?
    Hearing none, the question occurs on the en bloc amendment.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it, and the en 
bloc amendments are agreed to.
    Are there any additional amendments to H.R. 4490?
    Hearing no further amendments, the question now occurs on 
agreeing to H.R. 4490 as amended.
    All those in favor, say aye.
    All opposed, no.
    In the opinion of the Chair, the ayes have it. The bill as 
amended is agreed to.
    And, without objection, H.R. 4490 as amended is ordered 
favorably reported as a single amendment in the nature of a 
substitute. Staff is directed to make any technical and 
conforming changes.
    And we now move to the remaining three measures, which we 
will consider en bloc together with the bipartisan amendments 
provided to your offices yesterday.
    Without objection, the following items, which all members 
have before them, are considered read and will be considered en 
bloc: H.R. 4028, To amend the International Religious Freedom 
Act of 1998 to include the desecration of cemeteries . . .; 
Collins Amendment No. 44 to H.R. 4028; House Resolution 520, 
Calling for an end to attacks on Syrian civilians and expanded 
humanitarian access; Royce Amendment 101 in the nature of a 
substitute to House Resolution 520; House Concurrent Resolution 
51, calling for the establishment of a Syrian war crimes 
tribunal; and the Smith Amendment No. 51 in the nature of a 
substitute to House Concurrent Resolution 51.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Royce. I will now recognize members who want to 
speak on the en bloc items. And I will begin with myself, 
because today we are considering two resolutions regarding the 
crisis in Syria.
    The first is House Resolution 520, which Ranking Member 
Engel and I introduced last month in response to the dire 
humanitarian situation there. Mr. Engel has led on this 
critical issue for years now, which I greatly appreciate.
    It has been over 3 years since Syrian protesters peacefully 
gathered to call for democratic reforms. Many of you remember 
the protest with the demonstrators asking, ``Peaceful, 
peaceful,'' as they walked through the street before they were 
fired upon by forces loyal to Syria's brutal dictator, Bashar 
al-Assad. Since then, the conflict has claimed the lives of at 
least 150,000 people. It has displaced millions, while fueling 
the expansion of terrorist groups throughout the region.
    This crisis is a humanitarian nightmare. Backed by Russia, 
Iran, and Hezbollah, Assad continues to commit mass atrocities, 
including the extermination of entire families, incidents of 
ethnic cleansing, aerial bombardment of residential areas with 
barrel bombs, and even the use of chemical weapons, such as 
last summer's sarin attack on a Damascus suburb.
    The U.N. has estimated that over 9 million Syrians trapped 
inside the country are in need right now of humanitarian 
assistance. Yet Assad continues to use international aid as a 
weapon of war. He has instigated kneel-or-starve campaigns in 
which civilians are denied food and other basic supplies until 
they bow to the regime.
    This resolution demands that all parties to the conflict in 
Syria immediately cease attacks on civilians and provide aid 
workers with access throughout the country. This would include 
the many Syrian-Americans, including medical professionals, who 
are so bravely trying to provide assistance to those in need 
inside Syria.
    It also urges the administration to formally withdraw its 
official diplomatic recognition of the Assad regime. Shortly 
after this resolution's introduction, the administration 
expelled Syrian diplomats from the United States. Given Assad's 
barbaric slaughter of his own people and other grave abuses, 
ending our official recognition of his regime is more than 
justified.
    And, lastly, this resolution calls upon the President to 
develop and submit to Congress a strategy for U.S. engagement 
on the Syria crisis.
    Now the other House Concurrent Resolution 51, that I was 
going to comment on was introduced by Subcommittee Chairman 
Smith. We appreciate what strong leadership Mr. Smith has shown 
on so many humanitarian issues, and the crisis in Syria is no 
exception.
    I have already touched on the growing list of horrendous 
atrocities being committed inside Syria. Assad and his 
supporting forces, which include Hezbollah, are guilty of 
widespread human rights violations, summary executions, ethnic 
cleansing, chemical attacks. And, meanwhile, extremist groups, 
especially associated with al-Qaeda, have also been guilty of 
grave abuses as they strive to violently impose their own 
radical ideology on Syrian civilians.
    House Concurrent Resolution 51 calls for the creation of an 
international tribunal to hold accountable those responsible 
for these heinous crimes. The resolution envisions a flexible, 
ad hoc court, like those established following brutal conflicts 
in Yugoslavia, Rwanda, and Sierra Leone.
    To be clear, this court would be entirely distinct from the 
International Criminal Court and would focus solely on the 
Syria crisis. Congressional approval of this resolution will 
send a strong signal of support to the Syrian people, and I 
urge members to support its passage here today.
    And I now turn to H.R. 4028, introduced by Ms. Meng of New 
York.
    The freedom to practice the religion of one's choosing is a 
core principle of good democratic governance. This freedom 
includes the ability to gather and pay respects to loved ones 
in accordance with religious or spiritual rights of passage. 
Unfortunately, in some places around the world, local or 
national governments have permitted the destruction of 
cemeteries with certain religious affiliations or have 
tolerated their desecration by hateful groups.
    H.R. 4028 modifies the International Religious Freedom Act 
to include the desecration of cemeteries among the listed 
violations of the right to religious freedom. This bill 
emphasizes that Congress views the desecration of cemeteries as 
constituting a violation of this fundamental right.
    And I want to thank the bill's author, Ms. Meng, for her 
leadership on this important issue.
    And I also want to thank Mr. Collins for his amendment 
today, which puts the preservation of burial grounds in its 
proper context. As members know, Mr. Collins has served as a 
pastor, and we very much appreciate his insight.
    So do any members seek recognition to speak on any of the 
en bloc items?
    We will start with Ms. Meng.
    Ms. Meng. I would like to thank Chairman Royce and Ranking 
Member Engel for including H.R. 4028 in the en bloc package of 
bills before the committee today for consideration.
    I also want to thank Congressman Doug Collins for his 
partnership here and valuable contributions to the bill.
    Thank you to both Republican and Democratic committee staff 
for recognizing the value of this bill and working so hard to 
bring it before the committee today.
    The bill is short but, I believe, significant. It adds the 
words ``desecration of cemeteries'' to the violations of the 
rights to religious freedom listed in the International 
Religious Freedom Act of 1998.
    There are two related problems we seek to address through 
this legislation. One is the religiously motivated vandalism of 
cemeteries that occurs with alarming regularity. The second is 
the building and development over cemeteries in places where 
there are no communities remaining to protect and look out for 
the cemeteries. The bill will give our diplomats a new tool 
they can use to protect our interests.
    H.R. 4028 also empowers the Commission for the Preservation 
of America's Heritage Abroad. This commission was established 
in the 1980s through legislation introduced by the late 
Congressman Stephen Solarz. The Commission works to identify 
and preserve cemeteries, memorials, and buildings in foreign 
countries that are associated with the cultural heritage of 
Americans.
    The Commission has done much work in areas of the former 
Soviet Union where Jewish communities were destroyed by the 
Holocaust and where power subsequently passed to atheistic 
communist regimes. It is essential that we act to protect 
religious freedom in these areas where, as we know, political 
instability and anti-Semitism are widespread.
    It is fitting that we consider this bill during Holocaust 
Remembrance Week because the bill is largely devoted to the 
millions who perished in genocides in the 20th century. These 
genocides destroyed communities and left their burial grounds 
uncared for and unpreserved.
    The preservation of cemeteries often reflects the religious 
tolerance and freedom of the countries in which they are 
located. It is my hope that this legislation will help promote 
such preservation and greater tolerance, respect, and empathy 
around the world.
    I thank the committee again for its consideration and yield 
back the balance of my time.
    Chairman Royce. Ms. Meng, we thank you again for this 
amendment. Thank you.
    Let's see. I think we need to go to Mr. Smith next and then 
to this side.
    Mr. Smith. Thank you very much, Mr. Chairman. And thank you 
for scheduling this important markup and for including H. Con. 
Res. 51 among the bills and resolutions considered.
    I, as no doubt all of you, have been shocked by images of 
horrific human rights violations, including summary executions, 
torture, rape, and chemical weapon attacks in Syria. Since the 
Syrian Civil War began, perhaps as many as 150,000 people have 
been killed and more than 9 million people have been forced to 
leave their homes, 6.5 million of them internally displaced. By 
the end of last year, it is estimated that neighboring 
countries such as Turkey, Jordan, Lebanon, and Iraq were 
holding nearly 3 million Syrian refugees.
    Who is culpable for these heinous acts, and how can they be 
held accountable, be they members of the Assad regime or 
Islamist radicals from neighboring countries? Those who have 
perpetrated human rights violations among the Syrian 
Government, the rebels and the foreign fighters on both sides 
of this conflict, must be shown that their actions will have 
serious, predictable, and certain consequences. They need to 
learn the lesson that Charles Taylor learned, who got a 50-year 
sentence when he was brought to trial and convicted by the 
Special Court for Sierra Leone.
    H. Con. Res. 51, introduced on September 9th, calls for the 
creation of an international tribunal that would be more 
flexible and more efficient than the International Criminal 
Court to ensure accountability for human rights violations 
committed by all sides. Such a tribunal would draw upon past 
experience, creating a justice mechanism robust enough to hold 
perpetrators accountable for the most egregious wrongs yet 
nimble enough not to derail chances for peace due to rigidity.
    Beginning with the Nuremberg and Tokyo tribunals, a body of 
law has developed concerning war crimes, crimes against 
humanity, and genocide. Since the end of the Cold War, we have 
seen examples of ad hoc tribunals in the former Yugoslavia, 
Rwanda, and hybrid mechanisms such as the Special Court for 
Sierra Leone.
    As chair of the subcommittee that deals with human rights, 
especially during the 1990s, as well as Helsinki Commission 
chairman, I held a series of hearings on the Yugoslav tribunal, 
the courts that were in Sierra Leone and Rwanda, the two in 
Africa, and often had the chief prosecutors testify at those, 
including Carla Del Ponte from the Yugoslav court and the chief 
prosecutor from Sierra Leone, David Crane. Well, we brought 
David Crane back last October 30th to ask him what his view 
would be on such a court, and he gave riveting testimony, as 
did other experts, as to the absolute need for the immediate 
establishment of this kind of flexible court.
    I would note parenthetically that each of these tribunals, 
the three of them, have achieved a level of success that has 
escaped the International Criminal Court. The Yugoslavian 
tribunal has won 67 convictions; the Rwanda tribunal, 47; and 
Sierra Leone has won 16 convictions. Meanwhile, the ICC, 
costing about $140 million annually, has thus far seen only one 
conviction--all of the indictments have been in Africa, and 
only one conviction of somebody, a lower-level person from the 
DR Congo.
    One thing we do not want to do is go down the ICC route. 
The ICC process is distant and has no local ownership of its 
justice process. It is far less flexible than an ad hoc 
tribunal that can be designed to fit the situation. The ICC 
requires a referral. In the case of the current President and 
Deputy President of Kenya, it was Kenya itself that facilitated 
the referral. That is highly unlikely in the case of Syria.
    Since Syria is a Russian client state, this U.N. Security 
Council member would oppose any referral of the Syria matter to 
the ICC but might be convinced to support an ad hoc proceeding 
that focuses on war crimes by the government as well as the 
rebels, one that allows for plea-bargaining for witnesses and 
other legal negotiations to enable such a court to successfully 
punish at least some of the direct perpetrators of these 
increasingly horrific crimes.
    And Syria, like the United States, never ratified the Rome 
Statute that created the ICC, which raises legitimate concerns 
about sovereignty, with implications for our country, which 
this panel also addresses.
    There are issues that must be addressed for any Syrian war 
crimes tribunal to be created and to operate successfully. 
There must be sustained international will for it to happen in 
a meaningful way. An agreed-upon system of law must be the 
basis for the proceedings. An agreed-upon structure, funding 
mechanism, and location for the proceedings must be found. 
There must be a determination on how many targets of justice 
will be pursued. A timetable and time span of such a tribunal 
must be devised. There are even more issues that must be 
settled before such an ad hoc tribunal can exist.
    Those who are even now perpetrating crimes against humanity 
must be shown that their crimes will not continue with 
impunity. Syria has been called the world's worst humanitarian 
crisis. One might reasonably also consider it the worst human 
rights crisis in the world, as well. Therefore, the 
international community owes it to the people of Syria and 
their neighbors to do all that we can do right now to bring to 
a halt the actions of those creating this crisis for Syria and 
the region. Now we have the opportunity to give hope to the 
terrorized people of Syria.
    The subcommittee that I chair had a hearing last October 
30th where we heard from some of the most experienced voices 
concerning international justice mechanisms, as we have met 
several times with the State Department and have worked 
diligently with the committee, especially Ranking Member Eliot 
Engel and Chairman Ed Royce, in shaping a lean, muscular 
resolution that could be adapted to address this situation in 
Syria as it currently exists, providing broad latitude for the 
administration to conduct foreign policy.
    The suffering of the people of Syria must end, and today we 
have our opportunity to help achieve that. This is a means to 
that end. And, again, those who are committing these horrific 
crimes need to know that they face certain punishment.
    I yield back, and I thank you very much.
    Chairman Royce. Thank you, Mr. Smith.
    Mr. Gerry Connolly of Virginia.
    Mr. Connolly. Mr. Chairman, because of scheduling, if you 
don't mind, I would yield to my friend, Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Connolly. Thank you, Mr. 
Chairman.
    Thank you, Chairman Royce, for holding today's markup and 
for your leadership in addressing the Syria crisis.
    I would like to offer my full support for H. Res. 520, 
which seeks to refocus U.S. policy toward Syria and provide 
greater access to humanitarian relief to those who are 
suffering.
    As my colleagues have noted, there are now 9.3 million 
people in need of humanitarian assistance, 6\1/2\ million 
internally displaced people in Syria, with potentially 3 
million of those in besieged areas, and 2.7 million refugees in 
neighboring countries. Our regional allies are struggling to 
absorb this massive influx.
    And while the United States has provided over $1.7 billion 
in relief, funding appeals from the United Nations have been 
grossly ignored by the international community, with only $1.5 
billion of the U.N.'s $6.5-billion appeal having been 
fulfilled.
    The conversation surrounding Syria can no longer be just 
about how we put an end to the conflict. It must be about what 
we can do to mitigate the immediate effects of this tragic 
situation on so many innocent civilians.
    We saw a glimmer of hope when the United Nations Security 
Council passed a nonbinding resolution calling on all sides to 
respect humanitarian access. But the terms of this resolution 
have been largely ignored, as millions are still cut off from 
food deliveries and basic medical treatment.
    All of this continues in the midst of new reports that 
chemical attacks using chlorine gas may have happened this past 
month.
    The United States alone will not solve the Syrian crisis, 
but we must continue to press our allies to act on humanitarian 
needs. Ending this type of unimaginable human suffering should 
be a priority for the entire world, but the United States and 
our reputation throughout the world is strengthened when human 
rights holds a prominent place in our foreign policy.
    I would again like to thank the chair and the ranking 
member for their commitment to continuing to advance our Syria 
policy. And I thank my good friend, Mr. Connolly, for yielding.
    Mr. Connolly. Thank you.
    Mr. Chairman, I want to lend my support, my very 
enthusiastic support, to both H. Res. 520 and H. Con. Res. 51, 
companion pieces with respect to Syria.
    The humanitarian crisis in Syria is almost unprecedented in 
the region. We had testimony just a few weeks ago before this 
committee by Rajiv Shah, the USAID Administrator, that the 
number of internal displaced persons in Syria and the number of 
external refugees generated by the crisis has quadrupled in the 
year since he testified previously--quadrupled.
    We now have 25 to 30 percent of the equivalent population 
as refugees in Lebanon and Jordan. These are clearly potential 
sources of destabilization in that part of the world that we 
can least afford. So addressing the humanitarian crisis, it 
seems to me, must be a priority for the United States 
Government.
    And I applaud Mr. Smith for his remarks, and for your 
leadership as well, Mr. Chairman, and for that of Mr. Engel, on 
the war crimes resolution. We do know that that is efficacious. 
We do know that that makes a difference. And holding out that 
hope to the victims of this violence, that sooner or later they 
will be brought to justice, we will see to it, that is what 
this resolution says. And I think it is a very important 
cornerstone of our evolving foreign policy with respect to the 
crisis in Syria.
    I thank the chair, and I thank my colleagues for their 
leadership. And I yield back.
    Chairman Royce. Thank you, Mr. Connolly.
    Mr. Dana Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and I 
appreciate you recognizing me for this semi-colloquy.
    And I appreciate your leadership on the issue that was 
brought before us in H.R. 4490, the communications amendment 
and legislation that we just passed through this committee. 
That really is desperately needed reform that has been needed 
for a long time.
    And it is my understanding that you are seriously 
considering including report language that indicates that 
broadcasting entities should not hire an individual who has 
worked within the previous 6 years for the foreign ministry, 
state-sponsored media, or security services of any country that 
does not provide objective, accurate, and credible news.
    This policy is vital to protect our honest and hardworking 
journalists and broadcasters from foreign agents acting at the 
behest of hostile powers. This will also add other improvements 
to the security that this committee has already put in place by 
passing that legislation.
    Three years ago, when I chaired the Oversight and 
Investigation Subcommittee, the very first hearing I called 
looked into the BBG. A major problem that we uncovered at that 
hearing was the lack of effective counterintelligence 
protection for our international broadcasters.
    Mr. Chairman, you know what a powerful tool the Voice of 
America and the Freedom Broadcasters are for our country. 
Preventing such people from working for our broadcasters will 
increase the credibility of our broadcasters and add additional 
security against efforts by foreign powers to disrupt their 
work. I appreciate your willingness to consider including 
language in that legislation, report language, that will deal 
with this issue.
    Chairman Royce. And I want to thank Mr. Rohrabacher for the 
seriousness that he has brought to this debate over how we go 
forward with the Broadcasting Board of Governors.
    One of the specific concerns you have is, of course, the 
vetting of employees who would be tied to foreign governments. 
We accepted your first amendment, which directly says that 
foreign agents--that employees will be vetted to catch foreign 
agents of foreign regimes or those tied to advocating 
terrorism, et cetera. That may have caught most of what you 
want to go after.
    If there is additional language, we are happy to try to 
work with you to work something out as we go forward. This is 
just the first step in the process. But we did accept your 
first amendment----
    Mr. Rohrabacher. Thank you very much.
    Chairman Royce [continuing]. Going directly to the point.
    Mr. Rohrabacher. And I appreciate your willingness to 
perfect it.
    Chairman Royce. Very good. Well, we will try to perfect it. 
Thank you, Mr. Rohrabacher.
    We go now to this side. Any other members seeking 
recognition at this time?
    If not, I think Mr. Collins had the amendment.
    Mr. Collins. Yes. Mr. Chairman, thank you.
    And I would want to thank Congresswoman Meng for bringing 
this issue of desecration of cemeteries to light. It is good 
when we can come together, and especially on issues such as, 
not only religious expression, but also doing so in a very 
tangible way I think is very good. And it is always good to 
reach across and show that we can find common ground, and I 
appreciate that.
    My amendment only adds finding language to the H.R. 4028 to 
highlight the necessity for Congress to add cemetery 
desecration as a violation of religious expression. The 
desecration of the Kaposvar Jewish Cemetery in Hungary is a 
sobering reminder of the lack of religious freedom abroad. 
Something that we have here is not universal. Those grounds are 
final resting places for the deceased and deserve the respect 
of all, regardless of personal beliefs.
    These acts and others like them around the world show the 
continued prejudice toward ethnic and religious groups. These 
attacks affect the fundamental right to freedom of religion, 
especially when tolerated or encouraged by local or national 
governments.
    As an Air Force Reserve chaplain, I believe expressing your 
personal religious beliefs shouldn't be just a privilege, but 
it should be a right given to everyone. That is why I am 
cosponsoring Representative Meng's bill and encourage Congress 
to put its weight behind such a cause.
    This body is committed to protecting the freedom of 
religion, including the preservation of heritage of cemeteries 
across the United States and abroad. That is what brings us to 
this amendment and also to this fine bill and the work that has 
been done by Congresswoman Meng, which I commend, and also the 
chairman and ranking member.
    And, with that, Mr. Chairman, I yield back.
    Chairman Royce. Thank you, Pastor Collins.
    Now, hearing no further requests for recognition, the 
question now occurs on the items considered en bloc. This would 
be the legislation by Ms. Meng on International Religious 
Freedom Act, as it regards desecration of cemeteries, expanding 
that. It would include Mr. Smith's bill, the Syrian war crimes 
tribunal legislation, and the Royce-Engel legislation on Syrian 
humanitarian access. So we will consider that en bloc.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it. The measures 
are considered en bloc. H.R. 4028, House Resolution 520, and 
House Concurrent Resolution 51 are agreed to as amended.
    And, without objection, each of the measures as amended is 
ordered favorably reported as a single amendment in the nature 
of a substitute.
    Staff is directed to make any technical and conforming 
changes.
    And that concludes our business of today. I want to thank 
Ranking Member Engel and all of our committee members here for 
their contributions and assistance to this legislation.
    The committee is adjourned.
    [Whereupon, at 10:48 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

             <F-dash>\\a<natural><loz><brit-pound><sharp> 
           s<brit-pound><acctof><acctof>a<natural><variable>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               <F-dash>\<box><Rx><bullet><box><script-l> 
                     <Hoarfrost><F-dash><Register>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

         <F-dash>\<Hoarfrost><star><box><natural><acctof>a<Rx> 
                     <Hoarfrost><F-dash><Register>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
                     <Hoarfrost><F-dash><Register>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
